<html>
<title> - A TICKING TIME BOMB: COUNTERTERRORISM LESSONS FROM THE U.S. GOVERNMENT'S FAILURE TO PREVENT THE FORT HOOD ATTACK</title>
<body><pre>[Senate Hearing 112-151]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-151

                 A TICKING TIME BOMB: COUNTERTERRORISM
               LESSONS FROM THE U.S. GOVERNMENT'S FAILURE
                    TO PREVENT THE FORT HOOD ATTACK

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                                 of the

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 15, 2011

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
66-620 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  ROB PORTMAN, Ohio
MARK BEGICH, Alaska                  RAND PAUL, Kentucky

                  Michael L. Alexander, Staff Director
     Gordon N. Lederman, Associate Staff Director and Chief Council
                for National Security and Investigations
                       Charles F. Martel, Counsel
              Seamus a. Hughes, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Luke P. Bellocchi, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk











                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     2
    Senator Johnson..............................................    21
Prepared statements:
    Senator Lieberman............................................    27
    Senator Collins..............................................    29

                               WITNESSES
                       Tuesday, February 15, 2011

Hon. Charles E. Allen, Former Under Secretary of Homeland 
  Security for Intelligence and Analysis and Chief Intelligence 
  Officer........................................................     3
General John M. Keane, USA, Retired, Former Vice Chief of Staff 
  of the U.S. Army...............................................     5
J. Philip Mudd, Senior Global Adviser, Oxford Analytica..........     8
Samuel J. Rascoff, Assistant Professor of Law, New York 
  University School of Law.......................................    12

                     Alphabetical List of Witnesses

Allen, Hon. Charles E.:
    Testimony....................................................     3
    Prepared statement...........................................    32
Keane, General John M.:
    Testimony....................................................     5
    Prepared statement...........................................    41
Mudd, J. Philip:
    Testimony....................................................     8
    Prepared statement...........................................    46
Rascoff, Samuel J.:
    Testimony....................................................    12
    Prepared statement...........................................    48

                                APPENDIX

``A Ticking Time Bomb, Counterterrorism Lessons From the U.S. 
  Government's Failure to Prevent the Fort Hood Attack,'' A 
  Special Report by Joseph I. Lieberman, Chairman, and Susan M. 
  Collins, Ranking Member, U.S. Senate Committee on Homeland 
  Security and Governmental Affairs, February 2011...............    59
American Civil Liberties Union, prepared statement...............   130
Responses to post-hearing Questions for the Record from:
    Mr. Allen....................................................   136
    Mr. Keane....................................................   139
    Mr. Mudd.....................................................   141
    Mr. Rascoff..................................................   143

 
                 A TICKING TIME BOMB: COUNTERTERRORISM
                   LESSONS FROM THE U.S. GOVERNMENT'S
                      FAILURE TO PREVENT THE FORT
                              HOOD ATTACK

                              ----------                              


                       TUESDAY, FEBRUARY 15, 2011

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:47 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Levin, Begich, Collins, Brown, 
and Johnson.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Two weeks ago, Senator Collins and I 
issued this report based on our bipartisan staff investigation. 
It was, as we have indicated, into the Fort Hood massacre that 
left 13 innocent people dead and 32 others, including Sergeant 
Lunsford, wounded.
    Our report--titled ``A Ticking Time Bomb: Counterterrorism 
Lessons from the U.S. Government's Failure to Prevent the Fort 
Hood Attack''--concluded, painfully, that the attack at Fort 
Hood was preventable. The Department of Defense (DOD) missed 
several opportunities to reprimand and discharge Army Major 
Nidal Hasan for his growing and surprisingly open embrace of 
violent Islamist extremism, and the Federal Bureau of 
Investigation (FBI) neglected to investigate him thoroughly 
after it learned that Hasan, a member of the U.S. Armed Forces, 
after all, was communicating with a suspected terrorist already 
the subject of a major FBI counterterrorism investigation.
    More broadly, our investigation uncovered a troubling lack 
of awareness among some U.S. Government officials about violent 
Islamist extremism, the ideology that inspires it, its 
manifestations, and how best we can prevent and confront it.
    Today we are going to hear reactions to our report's 
findings and recommendations and discuss how our government 
must proceed if it is to prevent future homegrown terrorism 
broadly and the loss of innocent American life at the hands of 
violent Islamist extremists.
    I want to particularly recognize, welcome, and, again, 
honor all those members of the victims' families, and Sergeant 
Lunsford, who are here today and also to welcome our panel of 
witnesses. They are really an extraordinary group of people 
with wide-ranging and long experience.
    Charlie Allen was the first Under Secretary of Homeland 
Security for Intelligence and Analysis and Chief Intelligence 
Officer and before that for a long time had been a top 
counterterrorism official at the Central Intelligence Agency 
(CIA).
    Phil Mudd is a former long-time CIA analyst and was the 
first Deputy Director for National Security at the FBI as post-
September 11, 2001, made itself into the lead U.S. Government 
agency for counterterrorism purposes.
    We are really honored to have Jack Keane with us, retired 
Vice Chief of Staff of the U.S. Army and four-star general, to 
discuss the military's response to this challenge.
    And Samuel Rascoff, Assistant Professor of Law at the New 
York University School of Law and former director of the 
intelligence analysis unit of the New York Police Department 
(NYPD), will bring the other perspective of local government 
and academia to the discussion.
    Because we are starting late, I am going to ask that the 
rest of my statement be included in the record.
    And I will now call on Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Let me begin my remarks by also expressing my personal 
thanks to the family members and victims who have traveled from 
afar to be with us today. As I told them in our meeting prior 
to this hearing, they were the ones who kept us going 
throughout this investigation, even though at times we met with 
obstacles and a lack of cooperation. And meeting with you today 
redoubles our determination to ensure that the recommendations 
in our report will become a reality.
    About a half a day, about 4 hours, that was the amount of 
time that the Washington Joint Terrorism Task Force (JTTF) 
spent determining whether a military officer in communication 
with a known terrorist suspect amounted to a national security 
threat. Underlying threat information was not shared with the 
Department of Defense. Additional investigative actions were 
not taken, even when the JTTF responsible for the lead called 
the investigation ``slim'' and pressed for more action.
    This hasty decision to close the investigation cost the 
government its last, best chance to identify the violent 
radicalization of Major Nidal Hasan, the last, best chance to 
potentially prevent the November 2009 massacre at Fort Hood.
    But well before this failure by the FBI, the Department of 
Defense itself had enough information regarding Hasan's violent 
radicalization to have disciplined or discharged him under 
current personnel and extremism policies. Hasan's extremist 
actions at Walter Reed Army Medical Center were well known to 
his supervisors and colleagues, and his poor medical 
performance was also evident. Yet the Department took no 
action--laying the foundation for the FBI's cursory 
investigation which relied, in part, on Hasan's inadequate and 
misleading officer evaluations.
    Our report's conclusion is alarming. It is a call to 
action. The Department of Defense and the FBI collectively had 
sufficient information to have detected Major Hasan's 
radicalization to violent Islamist extremism, but they failed 
to act effectively on the many red flags signaling that he had 
become a potential threat.
    I, too, am going to submit the rest of my statement for the 
record since we are starting late, but I just want to make four 
quick points.
    First, the Administration still is refusing to acknowledge 
that violent Islamist extremism is the ideology that fuels 
attacks.
    Second, the FBI cannot go it alone. Its Joint Terrorism 
Task Forces have been successful and deserve credit for 
thwarting plots against our country, but they risk becoming 
another intelligence stovepipe.
    Third, detecting and disrupting homegrown terrorism will 
require a sustained leadership effort from the Attorney 
General, the Secretary of Homeland Security, the Director of 
National Intelligence, and active coordination across Federal, 
State, and local lines.
    Fourth and finally, the U.S. Government must develop and 
implement an effective strategy to confront the violent 
Islamist ideology that fuels terrorism.
    Again, as I met with the families today, they renewed my 
personal commitment and I know that of the Chairman and all the 
Members of this Committee. They deserve no less than our 
steadfast commitment to achieving the goals that we have set 
out in our report. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Now we will go to the witnesses. Mr. Allen, great to 
welcome you back. I think we are calling on you first, as we 
usually do, based on seniority. And may I say you look great. I 
have not seen you in a while, so welcome back.

 TESTIMONY OF HON. CHARLES E. ALLEN,\1\ FORMER UNDER SECRETARY 
 OF HOMELAND SECURITY FOR INTELLIGENCE AND ANALYSIS AND CHIEF 
                      INTELLIGENCE OFFICER

    Mr. Allen. Thank you, Mr. Chairman and Ranking Member 
Collins. It is great to appear before this distinguished 
Committee again. I have a longer statement for the record that 
I would like to be entered into the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Allen appears in the Appendix on 
page 32.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection, it will be.
    Mr. Allen. The focus today, of course, is on the murder of 
12 servicemen and one Department of Defense civilian at Fort 
Hood by Nidal Malik Hasan, a U.S. Army major and a 
psychiatrist. But beyond that event, I think there is the 
broader issue of the potential growth of violent ideological 
Islamist extremism in our homeland, and Senator Collins just 
referenced that.
    I found the section of the Committee's special report on 
violent Islamist extremism to be in accord with views that I 
have held since 1998 when I was at the CIA working against al-
Qaeda and the global spread of Islamist extremism, along with 
Mr. Mudd. It delineates the ideology of violent Islamist 
extremism--and that of al-Qaeda its affiliates and others--from 
the belief in the religion of Islam and its practice. And that 
is very important.
    I am concerned, however, by the details in the report on 
the deference given Major Hasan by his superiors at the 
Department of Defense as he repeatedly persisted in studying 
Islamist extremism in ways that suggested he endorsed under 
some circumstances violent acts, including suicide operations.
    As this Committee is well aware, the United States has 
successfully continued very relentless efforts under two 
Administrations to disrupt, dismantle, defeat, and destroy al-
Qaeda, and it has been remarkably successful. The new factor, 
however, that has come to the fore over the last 2 years is a 
surge in homegrown extremism here in the United States. The 
growth of extremism, especially among young American Muslims, 
in 2009 and 2010 is very disturbing. According to a RAND 
Corporation study published in 2010, there were 46 publicly 
reported cases of radicalization and recruitment to jihadist 
terrorism between September 11, 2001, and December 31, 2009. 
But 13 of these cases occurred in 2009, up from an average of 
about four cases a year from 2002 to 2008. And the individuals 
charged with involvement in terrorism were primarily self-
inspired, self-motivated. And with few exceptions, they were 
not directed by al-Qaeda ``central'' or by al-Qaeda in the 
Arabian Peninsula.
    One cannot overstate the power of the Internet in fueling 
the growth of this radicalization. It is the primary means by 
which al-Qaeda markets its messages to hundreds of Web sites, 
commanding Muslims to kill or support the killing of U.S. 
citizens to defend Islam, which we know is a false statement.
    Anwar al-Awlaki in his latest video, which I think was on 
November 9, 2010, had one simple message, and it was very 
direct: ``Kill Americans.''
    Turning to the Committee's report, I agree strongly with 
the Committee's views in praising the work of the military, the 
FBI, and intelligence agencies, in disrupting and preventing 
attacks. And I think the Committee is accurate in its judgment 
that there is a need for a more comprehensive and coordinated 
approach to countering radicalization and homegrown terrorism 
across all agencies, including Federal, State, and local. If we 
are going to keep the country safe, I think we have to have a 
unified intelligence effort.
    We have talked about an integrated national intelligence 
enterprise to deal with domestic terrorism, but I think we are 
far from one where we have firm resolution. There is no unified 
national intelligence collection plan or not even a set of 
recognized national intelligence requirements relating to 
domestic terrorism. There are fault lines across the Federal, 
State, and local governments and the information sharing and 
building of trust among counterterrorism authorities.
    For example, the FBI is the country's primary domestic 
intelligence agency that has the responsibility to prevent and 
investigate acts of terrorism. It is a radically different 
agency from what existed on September 11, 2001, it really has 
improved. It has established the Joint Terrorism Task Forces, 
over a hundred of those. It has established Field Intelligence 
Groups in each of the FBI's 56 field offices. But it is not 
clear to me that the analysts are as well integrated into FBI 
investigations and operations as they should be, and it is 
especially important that they are not integrated with special 
agents in pursuing leads where there may be suspicious activity 
but no immediate predicate for investigation.
    The Department of Homeland Security (DHS) and its 
intelligence arm has yet to realize its full potential at the 
State and local level. It must do more to enrich its 
relationship not only with the fusion centers but with local 
police departments. Local police departments are not yet fully 
utilized as part of the overall national intelligence effort, 
even though they are well positioned to combat homegrown 
terrorism. They know their neighborhoods, and they are very 
diverse.
    It seems to me the lessons from Fort Hood are pretty clear. 
DOD needs to have both a doctrine and strategy for dealing 
effectively with the potential for Islamist extremism within 
our military services, and I believe this can be done while 
ensuring that military personnel have full freedom of religion, 
regardless of faith.
    Both DOD and the FBI also had sufficient information 
between them, if it had been acted upon--to have taken actions 
to prevent the attack by Major Hasan. However, neither had a 
total view of the potential threat posed by Nidal Hasan. More 
importantly, the DOD officer assigned to the JTTF never had 
access to all of the sensitive information involving Major 
Hasan's communications with a ``suspected terrorist.''
    It is essential that personnel assigned to the JTTFs from 
other agencies, such as DOD, have ``systems high'' clearances 
if they are to perform their jobs. Failure to share information 
and excessive compartmentation have contributed to American 
casualties in the struggle against terrorism, there are some 
examples of that in the past.
    I think the FBI is on its way to transformation, changing 
the Bureau's culture. But I believe the transformation is 
incomplete. It needs to move even more to become an 
intelligence-driven organization from its case-driven model 
that it has prided itself on over the years. I also believe 
that the JTTFs decentralized model has to be re-examined to 
ensure that FBI Headquarters' counterterrorism leadership is 
more directly involved in potential terrorism leads that could 
pose risks and the need for more intelligence colleague.
    I look forward to your questions.
    Chairman Lieberman. Thanks very much, Mr. Allen, for an 
excellent opening statement.
    General Keane, a pleasure to welcome you back. Thank you 
for all your service to our country and for coming forward to 
talk about this current challenge.

  TESTIMONY OF GENERAL JOHN M. KEANE,\1\ USA, RETIRED, FORMER 
              VICE CHIEF OF STAFF OF THE U.S. ARMY

    General Keane. Chairman Lieberman, Ranking Member Collins, 
and distinguished Members of the Committee, thank you for 
inviting me to testify today about the most significant threat 
to the security of the American people that I have seen in my 
lifetime--radical, violent Islamist extremism. I commend this 
Committee and the leadership of Senators Lieberman and Collins 
for their ongoing work in identifying this dangerous ideology 
and developing ways to protect against it.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Keane appears in the Appendix 
on page 41.
---------------------------------------------------------------------------
    My heart goes out to the family members of our murdered 
soldiers and civilian, and those who are here today. I hope you 
can find some satisfaction in the excellent work done by this 
Committee.
    The most recent work of the Committee on this challenge to 
our national security is its investigative report on the Fort 
Hood massacre that took place on November 5, 2009. That report 
puts the key issue front and center and confirms what many of 
us feared after the attack. Self-radicalized violent Islamist 
extremists are not just here in America; they have penetrated 
the U.S. military, which is one of the last places you would 
expect to find people so violently opposed to this country and 
its citizens.
    I would like to discuss my two reactions to this much 
needed and comprehensive report. First, I am shocked and 
disappointed by what this report reveals about the failure of 
the Department of Defense to come to grips with violent 
Islamist extremism and the danger it presents to our troops. 
Second, I wholeheartedly endorse the report's recommendations 
for reform in DOD to better protect against this threat.
    I will start with my first reaction--just how unacceptable 
the Army's failure to deal properly with Hasan's radicalization 
to violent Islamist extremism was. I reach this conclusion with 
sadness. I was proud to serve in the Army, and while I did, I 
was involved in helping the Army devise policies to protect 
against racial extremism that turned deadly at Fort Bragg, 
North Carolina, where I commanded. And I know the military is 
full of people at all ranks who are dedicated to the protection 
of the men and women in service. But this time, some of those 
people--including Hasan's superiors and colleagues--failed to 
do what was needed to root out a dangerous extremist.
    I agree with the report's conclusion that Hasan's open 
displays of violent extremism was a violation of military rules 
calling for good order and discipline. A list of things Hasan 
said and did in that report, when you add them up, shows he was 
an extremist who had no place in our armed services.
    I want to caution here that I know that our military 
includes thousands of brave and patriotic Muslim Americans who 
serve this country with honor. Some have given their lives in 
service to our country. When Hasan concluded that Muslim 
Americans might commit fratricide, he was not talking about 
them, but he was giving a warning about himself. As the report 
states, Hasan's extremism was not a secret. The officer who 
assigned him to Fort Hood told commanders there, ``You're 
getting our worst.''
    What should have Hasan's military superiors done? They 
should have been able to put the information together and 
conclude that Hasan believed the same things that the violent 
Islamist extremist enemies of this country believe, and that 
meant he should have been out of the military.
    But instead of removing Hasan, his superiors promoted him, 
graduated him from his residency and fellowship, assigned him 
to Fort Hood, and even approved him for deployment to the 
conflict in Afghanistan. Instead of moving Hasan out, his Army 
commanders moved him up. This is exactly the opposite of what 
responsible officers should have done.
    The report describes a series of reasons given by the Army 
for failing to deal properly with Hasan. I do not find any of 
those reasons credible. A pair of related reasons is that some 
of Hasan's superiors believed his views were not problematic, 
and others actually believed he provided valuable insight into 
Islamist extremism. This was a terrible misjudgment because the 
truth was that Hasan's views were problematic precisely because 
he was an extremist. It is hard to understand why senior 
officers did not see that.
    So why did Hasan's superiors fail to take the action that 
was necessary? That brings me to my second reaction to the 
report, which is my agreement with the report's recommendations 
about changing military policies and training to identify the 
threat of violent Islamist extremism among service members and 
to require that it be reported and dealt with.
    When I testified at a hearing before this Committee at the 
beginning of the investigation, I said this: ``It should not be 
an act of moral courage for a soldier to identify a fellow 
soldier who is displaying extremist behavior; it should be an 
obligation.'' This is as true today as it was then. 
Unfortunately, the report reveals that the military to this day 
still does not have policies and training which identify what 
violent Islamist extremism is and what our men and women should 
do when they see it.
    I know a lot of good people in the military have reviewed 
the Fort Hood attack to determine lessons learned, and some of 
their work and recommendations do move us forward. But we have 
to directly address the threat we face exactly, and that threat 
is violent Islamist extremism. Over a year after the Fort Hood 
attack, this direct and honest step still has not been taken by 
the military. Instead, the military avoids labeling our enemy 
for what it is, rather subsuming it under ambiguous terms such 
as ``extremism'' or trying to call it something completely 
different such as ``workplace violence.'' That is not 
acceptable because it leaves our service members vulnerable to 
more attacks from these extremists.
    Clarity is all the more important here because of the 
complexity of dealing with someone like Hasan, who commingles 
dangerous extremism with religion. Unless service members 
clearly understand the difference between legitimate religious 
observance and dangerous extremism, everyone in the military is 
in an unfair position. The reason is that service members are 
understandably reluctant to interfere with the practice of 
religion and that they are, rightly, trained by the military to 
respect religious observance. But that should never mean that 
violent Islamist extremism should be tolerated. The Department 
of Defense's failure to identify the enemy clearly causes 
service members at all ranks to avoid dealing with extremists 
properly, just as they avoided the need to deal with Hasan.
    The lack of clarity is also deeply unfair to the thousands 
of Muslims who serve honorably in the U.S. military. If service 
members clearly understand the difference between their 
religion and the dangerous radicalism of violent Islamist 
extremism, the patriotic Muslims in our armed services will be 
protected against unwarranted suspicion. In fact, it was just 
that sort of awful, untrue stereotype about Muslim soldiers 
that Hasan believed and promoted in his statements. The best 
way to defeat that stereotype is to educate our service members 
about the difference between the legitimate, peaceful 
observance of Islam, which is respected and protected, and the 
violent Islamist extremism which should lead to reporting, 
discharge, and law enforcement intervention.
    I endorse the changes that this report recommends because 
they do what needs to be done to fix the problems I have 
described. They are necessary to make, and they are not hard to 
make.
    I know from experience that the changes this report 
recommends could be made and implemented in a month or two if 
DOD chose to do so. That sort of urgency is necessary because 
our men and women in the military are vulnerable to a known 
danger and because DOD has an equal responsibility to protect 
its thousands of brave and patriotic Muslim-American service 
members from unwarranted suspicion by colleagues who have never 
been trained about what violent Islamist extremism is and how 
it differs from the peaceful exercise of Islam.
    I welcome this Committee's hard work to protect them, and I 
hope that DOD will act immediately to follow the 
recommendations in this investigative report, and I look 
forward to your questions. Thank you.
    Chairman Lieberman. Thanks very much, General Keane. 
Excellent statement, and it means a lot to our Committee to 
have your support of the recommendations and the findings.
    Next, Phil Mudd, we welcome you back, another familiar 
face. We thank you again for your service and welcome your 
statement now.

 TESTIMONY OF J. PHILIP MUDD,\1\ SENIOR GLOBAL ADVISER, OXFORD 
                           ANALYTICA

    Mr. Mudd. Thanks for having me, Senator. I do not really 
have a statement. I just wanted to have a conversation with the 
Committee about what I think about this and--I have been out of 
the business for 10 months--what my friends talk about when 
they speak about this. There are 13 people are dead and we talk 
about this a lot.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mudd appears in the Appendix on 
page 46.
---------------------------------------------------------------------------
    There has been a lot of complaining among my friends. They 
do not like the tone, they do not like the title. Others say we 
need a lot of accuracy in here, we ought to focus on the 
accuracy. I have heard other sides, including staff, say we did 
not get full cooperation.
    I would like to put that aside and say, Look, it is an 
honor to be here. I know families are behind me. Thirteen 
people are dead, and 32 are injured. I am not going to focus on 
what I heard in terms of bitching and moaning from my friends. 
I want to talk about what we should do.
    Chairman Lieberman. Great.
    Mr. Mudd. I think we should start by focusing on the 
problem we face in terms of threat, and this is a good time to 
do this because we are 10 years in. When I was sitting at the 
threat table in 2001, 2002, and 2003, you were talking about 
looking at a point target in a place like Pakistan and saying, 
do we understand the point target well enough tactically to 
figure out if they are going to send somebody to Chicago? That 
is Jose Padilla. So you could focus on an intelligence target 
overseas and in essence look for the point where that 
intelligence target was focusing in the United States.
    Flip that on its head right now and think now we have to 
look for people in the United States who might be motivated by 
people overseas, but in essence we are looking for a needle in 
a haystack because the overseas guys are not sending people 
here anymore. They are relying on the ideology of the 
revolution, to motivate someone here. So what we have to do is 
say, how do we get down from 20,000 people, or 50,000 or 1,000, 
to in the future find the Major Hasans? So that is the premise 
I am going at this with.
    What I would like to do is to offer some suggestions in 
seven or eight areas that relate to things like field 
operations, that relate to coordination among agencies, State 
and locals, and I have talked to some of them about this at the 
FBI, CIA, and DHS. But every one of the seven or eight comments 
I have relates to this question of how do you find people in 
the field when you cannot presume anymore that point targets 
overseas, that is, al-Qaeda leadership, will give you the clues 
you need to solve the problem.
    The fundamental transformation I am talking about is 
getting CIA intelligence or the National Security Agency (NSA) 
intelligence to penetrate al-Qaeda in Pakistan and Afghanistan 
versus getting State and locals or a JTTF or a fusion center in 
Amarillo, Texas, to tell you something is wrong here that we 
would never have seen overseas.
    A couple of broad categories I mention: When I think about 
this as a manager, you think about how do people operate in the 
field; how do we train them; what kind of guidance do we give 
them; how does headquarters operate to drive them; and what 
kind of policy background you have in terms of training when 
they enter service--especially in dealing with this as a 
metastasized threat and in dealing with this after 
conversations with friends in the Middle East and Europe--who 
are, by the way, facing the same things and talking about the 
same problems.
    I want to end with a couple comments specifically about the 
Internet because I think that is the biggest problem we have 
here, both operationally and in terms of guidance and 
legislation.
    In terms of field operations, as I said, I want to step 
through seven or eight ideas. Each of these, I will offer a 
specific comment about a way ahead that you could look at over 
90 to 120 days with your staff. I do not want to just lay a 
problem at your doorstep. I want to give you a solution.
    We have a metastasized threat where you cannot just focus 
on a Federal group or a federally led group like a JTTF. You 
have to focus on State and locals. You have something like 
17,000 or 18,000 police departments. There is not a lot of 
staff on JTTFs. We need to understand how we can get 
information from these State and locals up.
    So point one, I think there needs, 10 years in, to be a 
conversation about coordination among JTTF, State and locals, 
and--we have not mentioned this yet--fusion centers. Fusion 
centers are out there. There are 70-plus. They operate 
differently. They are charged with looking for these needles in 
haystacks. I would argue more specifically that you talk to 
people like the International Association of Chiefs of Police 
(IACP), the major city chiefs, and talk to them in conjunction 
with DHS and the FBI and say if the threat is changing but we 
are still driving the leads down from Washington and operating 
in relatively small centers like JTTFs, do we need to change 
that concept and what are your ideas from the people who see 
this problem in the streets--that is, State and local 
enforcement.
    I would argue second that you have to think about staffing 
there. I know there are a lot of discussions on the Hill about 
budget cuts. You understand the linkage between cutting off 
staffing for cops and cops' willingness to participate in 
Federal task forces. That is sort of a one-to-one correlation. 
The cops I talk to understand budgetary issues, but they are 
saying with a lot of violent crime, it is going to be 
increasingly difficult for us to participate in these 
intelligence-sharing programs like fusion centers and JTTFs if 
we have fewer and fewer cops to go on the streets. Believe me, 
behind the scenes when we have a beer, they are not complaining 
about what you have to do here; they are just saying we live in 
a reality. And police chiefs are saying, ``I might have to pull 
back from task forces.''
    We also should look at joint training. CIA trains human 
intelligence (HUMINT) officers; FBI trains HUMINT officers; FBI 
trains investigators; the Defense Intelligence Agency (DIA) 
trains analysts; CIA trains analysts; FBI trains analysts; 
fusion centers train analysts. Unbelievable. I would argue that 
we take a city approach. You take a city like Houston, Dallas, 
or Los Angeles. Los Angeles is a good example because they have 
a terrific counterterrorism program in the police out there. 
And say, should we think about training in a different way--
that is, hugely expensive. Bring people back to a training 
facility near Washington, put them together with a problem set 
of how do you find extremism--and have a standard process by 
which police, analysts, FBI agents, CIA officers, and DHS 
officers are sitting down saying, when we face a problem, here 
is how we are going to train to attack the problem and get out 
of this, having analysts and operations in an information-
sharing world train separately. So that is the second or third 
thing I would ask the staff to do.
    Let me shift quickly to talk about things like ideology, 
which is a problem I talked about, again, in the Middle East 
and Europe. We have a problem of extremism. Extremism is not a 
Federal violation, but it is the precursor for what we saw that 
led to the murder of 13 people. I would argue that Members of 
the Committee might want to talk to other places who have 
longer experience dealing with hate speech, places like Western 
Europe--I am talking about the Germans, the Dutch, the Swedes, 
and the Brits. The Australians are having this problem. We have 
to think about not just why one person murdered 13 people. We 
have to think about how we take hate speech and indications of 
violence on the Internet and boil that down to find one person 
and what indicators we can use. I am not talking about 
psychology. I am literally talking about technical tools to 
boil that down. But part of that has to be comfort from this 
side of the street to say that is OK, because people like me 
are very nervous about this. They saw the PATRIOT Act debate 
last week. They see people saying you are getting too intrusive 
in our lives. And, meanwhile, they are getting the message to 
be more intrusive as you look on the Internet. Very problematic 
for a practitioner.
    I will close quickly, but a couple other things.
    First, as I close, a bit of an off-the-wall comment, but we 
are looking for needles in haystacks, and a lot of these are 
coming from new communities that are nervous about working with 
security services. I would bring in DHS and say when we are 
bringing new people in for things like swearing them in to this 
country, do we have a conversation with them about how to be 
comfortable with your national security apparatus; what numbers 
can you call; what protection you have when you call someone. I 
think we ought to have a quick conversation--this is sort of 
the royal ``we,'' but I am suggesting your staff look into 
this--about how we talk systematically to new immigrants about 
how they can help integrate in this society and prevent further 
isolation of their communities in the event there is another 
attack, because this is bad for all of us, and I think most of 
them would understand it is bad for their communities. They are 
just nervous about talking to the Federal Government.
    I think similarly we should have an imam training program. 
I know this is government intruding into religion, but we are 
behind the curve on this. Countries overseas are doing this. I 
am not suggesting that we train imams about how to teach people 
about religion. I am suggesting that, similar to what I am 
talking about with immigrants, we have a conversation with 
them--and people overseas have already done this--to say this 
is how we need help, this is the message you should give to a 
kid who is considering violence, this is who to call, this is 
what protections you have--because a lot of them will say, ``I 
am not going to call if the kid is just going to get picked 
up.''
    My last point is about the Internet. We need to go from an 
ocean to a drop of water, because the number of people who are 
involved in this Islamist violent revolution is in the tens or 
hundreds of thousands. So to find people like Hasan, you are 
going to go from 10,000 or 20,000 people to one. I would 
suggest we consider looking at the legislation and regulations 
that guide how people--people like in the jobs I used to have--
look at the Internet and how they investigate potential violent 
activity on the Internet. Look at the laws and regulations, and 
then ask people on the other end, people like me, in a perfect 
world when you had no legislation, no regulations, what would 
you do? Characterize that air gap and say, are we comfortable 
giving people guidance to cover that air gap? Because I 
suspect--I am not sure about this--that you will find that air 
gap is wider than you think.
    But, again, it is an honor to be here. It is really an 
honor because I used to be here because of the position I held, 
and now you invited me because maybe I know something. And I 
know the families are behind me, and it is really a privilege, 
so thank you.
    Chairman Lieberman. Having heard your testimony, Mr. Mudd, 
we made the right move in inviting you because you clearly do 
know a lot. Your testimony was very helpful, and particularly 
the specific recommendations you made, which I would like to 
come back to.
    I do want to put an exclamation point around something you 
said, and it builds on the numbers that Mr. Allen and General 
Keane also talked about, which is that--and this is why we 
really ought to talk about this directly. When we talk about 
violent Islamist extremists, we are talking about a very small 
number of people in the Muslim-American community. I think Mr. 
Allen's numbers said something like 46 cases since September 
11, 2001, although the escalation was to 13 cases in 2009.
    Mr. Allen. In 2009.
    Chairman Lieberman. Yes, that was the number from September 
11, 2001, through 2009. So that is a very small number of 
cases.
    On the other hand, of course, it does not take too many 
people to do a terrible amount of damage, as we saw at Fort 
Hood, 13 dead, 32 injured, some quite seriously. So it puts our 
challenge in context, but I think it also ought to encourage us 
to just be very direct about who is the enemy and who is not 
the enemy, and to enlist, as I think you are suggesting, 
members of new American communities and the Muslim-American 
community to join us in this effort to find the drops of water 
in the ocean, if you will.
    Mr. Mudd. I know it is not time to respond, but I would 
quickly say my sense is most members of the community do not 
know, and I include both family and----
    Chairman Lieberman. Yes.
    Mr. Mudd. I watched hundreds of investigations, 
particularly at the Bureau, but a few like this at CIA. And I 
know there are a lot of questions about community participation 
and cooperation with law enforcement, and I think there is some 
fair criticism to be made. But I think mostly they do not know.
    Chairman Lieberman. Our final witness is Mr. Rascoff. You 
have been before us before--I guess you were before us when you 
were with the NYPD. Thanks from being here today.

TESTIMONY OF SAMUEL J. RASCOFF,\1\ ASSISTANT PROFESSOR OF LAW, 
               NEW YORK UNIVERSITY SCHOOL OF LAW

    Mr. Rascoff. Thank you, Chairman Lieberman, Ranking Member 
Senator Collins, and distinguished Members of the Committee. I 
am truly honored for the opportunity to testify today about 
aspects of the exceedingly important report that the Committee 
recently issued examining the failures that led to the Fort 
Hood tragedy and making structural recommendations to ensure 
that such an incident will not be repeated.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rascoff appears in the Appendix 
on page 48.
---------------------------------------------------------------------------
    Mr. Chairman, I ask that my written statement be entered 
into the record.
    Chairman Lieberman. Without objection.
    Mr. Rascoff. Thank you.
    And let me also say that I am humbled to be addressing you 
in the presence of a courageous survivor of the attack as well 
as relatives of the brave women and men who lost their lives on 
that truly awful day.
    My goal this morning is to elaborate on three findings in 
the report, with an eye to making constructive suggestions.
    First, I would like to say something about certain 
challenges to the achievement of meaningful collaboration or 
what I will call ``jointness'' on the Joint Terrorism Task 
Force.
    Second, I would like to comment about the proper role of 
the FBI as an intelligence agency in relation to domestic 
counterterrorism generally, and specifically as it pertains to 
the homegrown threat.
    And, third, I would like to offer some preliminary thoughts 
on the proper organization of American counter-radicalization 
and on some lessons learned from the British experiment, with 
similar strategies and programs.
    Let me just say at the outset that the issues that I am 
going to be talking about and that I have written about for the 
Committee all grow out of the work that I do as a law professor 
focused on issues of intelligence and counterterrorism, but 
certainly also are informed by my practical experience as the 
founding head of the NYPD's intelligence analysis arm.
    On the question of jointness in the JTTF, let me begin by 
saying what many of us already know, which is that the JTTF has 
clearly served as an indispensable facet of domestic 
counterterrorism from well before September 11, 2001. The JTTF 
recently marked its 30th birthday and, if anything, has only 
become that much more significant in the aftermath of September 
11, 2001. So any account of what we have done right in 
counterterrorism in this country over the last decade would 
have to assign a prominent role to the institution of the JTTF. 
And yet, as the report properly observes, there are aspects of 
the JTTF, and specifically with this question of jointness to 
which the JTTF naturally and justifiably aspires, that remain 
ill defined.
    What is the proper role of detailees from local police 
departments, let us say, or other Federal agencies on JTTFs? 
Are those detailees best thought of in the way of liaison 
between the FBI and the astonishing variety of institutional 
actors who have a role to play in counterterrorism?
    Perhaps the real significance of detailees is the different 
perspectives that they bring to bear on the work of the JTTF 
itself? Or for that matter, and for a host of reasons that I am 
happy to get into during the question-and-answer period, do 
detailees effectively end up becoming viewed by their FBI 
managers as only so many extra personnel to whom those 
habitually strapped leaders can turn to perform tasks that 
might otherwise have fallen to FBI special agents?
    In my view, the most significant contribution that the 
report makes in this area is in pointing out that the answers 
to many, if not all, of these critical questions remain 
elusive. On the whole, I think it is fair to say, JTTFs remain 
dominated by the strategic outlook of the FBI and only 
imperfectly function as clearinghouses for domestic 
counterterrorism information and for the disparate perspectives 
on terrorism that are brought by Federal and local agencies.
    On the question of intelligence and homegrown terrorism, I 
think this is, if anything, a more significant area in which 
jointness is lacking, and that is because on the JTTF, as part 
of the FBI's investigative work, the Bureau is playing at its 
core strength. When we turn to the intelligence mission, by 
contrast, and specifically to the enterprise of domain 
management--which is an innovation in the FBI that my colleague 
Mr. Mudd had an enormously important role in debuting--what we 
are really talking about is FBI agents understanding the 
environment in which they work.
    Now, to my mind, domain management represents a clear case 
where the Bureau and where the Federal Government more 
generally ought to be leveraging much more effectively the 
know-how of local police officers who, after all, know their 
terrain intimately, have lived and worked in their communities 
more or less their whole lives, and have a distinctive leg up, 
I would say, on their Federal counterparts when it comes to 
that kind of anthropological understanding of the world in 
which they operate.
    On counter-radicalization, I wholeheartedly endorse the 
report's conclusion that we need a national strategy. We need a 
national strategy that is headquartered in the White House; 
that is in a sense orchestrated by elements of Federal 
Government, such as the National Counterterrorism Center 
(NCTC)--and this is the nub--and a strategy that devolves most 
of the heavy lifting when it comes to the implementation of 
counter-radicalization to local actors. And when I say local 
actors, I mean to suggest police and other local officials, but 
even more so, local non-governmental entities. Why is that? 
Lessons learned from the United Kingdom and from other 
countries that have experimented with counter-radicalization 
suggest that effectiveness only comes when communities 
themselves become engaged with the enterprise of counter-
radicalization. So if we are going to succeed and if we are 
going to avoid some of the intensely knotty political and, in 
some sense, policy issues that have dominated the conversation 
about counter-radicalization in the United Kingdom, I think we 
are going to need to lean heavily on our own communities, and 
specifically our Muslim communities, to play a key role in 
moving the agenda on counter-radicalization.
    Let me conclude by saying that the report admirably calls 
attention to a range of lessons that ought to be internalized 
from the Fort Hood tragedy. I am particularly encouraged by the 
report and by this Committee's ongoing involvement in issues 
relating to the design and implementation of a domestic 
counterterrorism architecture that is suited to the emerging 
threat environment.
    I look forward to answering your questions, and I thank you 
for your time.
    Chairman Lieberman. Thanks very much, Professor Rascoff. 
Since I first met you when you clerked here for Justice David 
Souter, I believe, and I just called you ``Sam,'' it is a 
pleasure for me now to refer to you as ``Professor.'' It is 
actually quite noteworthy in its way that you are a professor 
who has focused at a law school on these issues, and that is 
important as well.
    We will do 7-minute rounds of questions. Excellent opening 
statements and very helpful to us.
    General Keane, let me come back to ask you to speak just a 
little bit more about the perplexing part of the results of the 
investigation about the the army's handling of Major Hasan, 
which is, I kept asking myself as we went over the findings, 
why were his superiors not dealing directly with his open 
expressions of violent Islamist extremism? Put aside for a 
moment whether he was a good psychiatrist or some evidence that 
they were pushing him along and promoting him when he really 
was not that good. But was this some kind of exaggerated 
political correctness in the superiors? Was it that it was just 
easier to move him along rather than creating a bureaucratic 
problem? Or was it something else?
    General Keane. It has been my experience in dealing with 
racial extremism when I first confronted that as a result of 
the two murders at Fort Bragg that the normal thing that 
happens when people use speech that is so abhorrent to most of 
us, the natural thing is to pull away from it because you have 
great difficulty identifying with it in terms of your own 
values, and in this case even in terms of the military's 
values. And I saw that with racial skinheads. The tendency was 
for the soldiers to pull away from it, and in those cases, the 
chain of command failed to act on the hate speech and on 
behavior as well.
    I think much the same has taken place here. People have a 
tendency to pull away from it. They know they are hearing 
something that they do not agree with and do not identify with. 
And what is particularly problematic is this is a military 
organization, and we have responsibilities to act on behavior 
or conduct that is not in keeping with the good order and 
discipline of our organizations. And that is the thing that is 
most troublesome, responsible officers hearing that pulled away 
from it and decided not to confront it because they were 
uncomfortable and were giving up their responsibilities as 
officers to deal with this.
    I also think that Hasan, in the environment he was 
operating in, had certain tolerances and privileges that 
probably would not have existed if he was in a normal 
warfighting organization.
    Chairman Lieberman. How do you mean?
    General Keane. He was an officer, a doctor, and a 
psychiatrist. And I think that gave him certain tolerances that 
contributed to this. That does not excuse the officers in not 
confronting them.
    Chairman Lieberman. Right.
    General Keane. But I do think it probably contributed to a 
certain degree.
    Chairman Lieberman. I think you are right. If I am not 
mistaken, he was the only Muslim psychiatrist in the army. Is 
that correct?
    There was one other. So that in that sense, they may have 
wanted to defer to him as a resource, but obviously with tragic 
consequences.
    Incidentally, the families who are here quite rightly 
focused Senator Collins and me in our discussion before the 
hearing on people being held accountable for their behavior in 
these cases. And I know we have talked to people at the 
Department of Defense. They say they do not want to act on 
these cases until the legal proceedings against Hasan are over. 
But it is really important that the people who acted 
negligently--and I know we all have the clarity of hindsight 
here, but that they be held accountable. And we are going to 
stay on that until that happens.
    Let me ask you this question and maybe ask a few others to 
get involved in it. In this strange, to me, unwillingness to 
describe the enemy as what it is here, violent Islamist 
extremism, I mean, the 9/11 Commission Report, the Kean-
Hamilton report, had a conclusion that really rings out so 
clearly. The enemy--I am paraphrasing, of course, here--is not 
just al-Qaeda, they said; and it is certainly not the religion 
of Islam. It is a politicized ideology, a corruption of the 
religion, which is violent Islamist extremism. I believe that 
is the literal word they used for it.
    I think that there are still some people in the Executive 
Branch of government who believe that--incidentally, 
notwithstanding the fact that we have been fighting the 
manifestations of that ideology at considerable loss of life 
and national treasure in Iraq, Afghanistan, and elsewhere. We 
refuse to call it that here. I think some people in the 
Administration feel that if we do so it will compromise our 
relationship with the broader Muslim world outside of America 
and, to some extent, with the Muslim-American community. And I 
wonder if you, General Keane, Mr. Allen, or any of the others 
want to comment on that conclusion.
    General Keane. Well, first of all, I find it outrageous 
that 10 years after September 11, 2001, we still have 
difficulty identifying this for what it is and are unwilling to 
name it. That is profoundly disappointing.
    And as a soldier, I mean, the first place you start with is 
who your enemy is.
    Chairman Lieberman. Right.
    General Keane. And what are their motivations and what are 
they trying to accomplish? And you have to come to grips with 
that if you are expecting in any way, shape, or form to be 
successful against them. So that is stunning in and of itself.
    The issue that we get into here because the ideologues have 
used religion to fuel their belief system and somehow we are 
unwilling to confront it because it is associated with a 
religion is such an insult to the Muslims who find this 
ideology abhorrent themselves. They do not identify with this. 
They are outraged by that ideology. It is against everything 
that they stand for, and it translated into this horrific 
behavior that we saw at Fort Hood. Muslims inside the military 
and Muslims outside of it do not identify with this. They want 
it to be separated from them.
    And coming to grips with what it is helps provide them the 
separation that they so desperately need. It helps to remove 
the veil of suspicion and mystery that may surround it. Helping 
to educate people about the ideology and how abhorrent it is 
and what it stands for is something that is certainly needed. 
And in this case in the military, I am absolutely convinced 
that training and education programs are necessary, must be 
mandated for the whole chain of command to participate in, much 
as we did with racial extremism. And I believe in my heart that 
will also find some protection for the Muslim soldiers who are 
in the military to avoid the stereotyping that grows out of 
this and the unwillingness of people to confront it.
    Chairman Lieberman. Thanks. My time is actually up. Mr. 
Allen.
    Mr. Allen. I would just like to say that I think Mr. Mudd 
hit it right. It is the ideology. You have it right, Mr. 
Chairman. And the Internet is fueling it, and when Mr. Mudd 
talks about not just dozens but hundreds, if not thousands, are 
listening to this extremist virulent message day after day 
after day, it is infecting a small segment of American-Muslim 
society. And for us not to call it what it is and deal with it 
directly I think only exacerbate long-term our problems here in 
the homeland.
    Chairman Lieberman. Agreed. Mr. Mudd.
    Mr. Mudd. Senator, let me be quite specific. It is the 
difference between what we do and what we say. We have a 
problem with violent Islamist ideology in this country. That is 
a problem. We should not say this, and I would discourage you 
from ever using the word ``terrorism'' or ``Islamist'' in a 
speech. Let me tell you why. My job is to kill the adversary 
ideologically. Operationally they are just trying to inspire 
people, their revolutionary movement. So operationally you can 
take people out of the streets. Ideologically you are hoping 
that the revolution dies over time because people start to say 
there is no message here, this is nihilistic, there is no 
future.
    Three years ago, Ayman al-Zawahiri, the second in charge of 
al-Qaeda, had his one and only Internet interview, not live but 
he took questions. The first question he chose to respond to 
came from North Africa. It was from an engineer, I believe, or 
a teacher. And the question was about explain, Mr. Zawahiri, 
why you kill so many innocent Muslims.
    Now, why does he choose to take this question? Why does he 
choose--and, again, it was not live, so al-Qaeda put this one 
at the top of the hopper. If you look at research post-
September 11, 2001, across the Islamic world--and Pew Research 
does some pretty good work--most of these countries--Jordan, 
Saudi Arabia, Yemen, North Africa, going into Southeast Asia--
have experienced the murder of innocents by al-Qaeda. You 
remember the horrific murder at a wedding in Jordan a few years 
ago, just a horrible thing. And the murders that led, I think, 
to the uprising against incoming Islamists in Iraq, I do not 
think the surge was the only thing that resulted in some 
success. There were a bunch of Iraqis saying, ``Why are they 
killing us? We may not like the Americans, but we sure as heck 
do not like some Sunni coming from Yemen shooting us up.''
    I think what Zawahiri is realizing is that people who he 
needs to recruit are losing interest in the movement not only 
because they do not see a future, but because too many locals 
have died. They cannot defend the accusation of murder in their 
own communities. They can defend being terrorists.
    So to close this circle, as someone who wants to kill the 
ideology, I think we ought to call them what they hate to be 
called. They liked to be called terrorists. They liked to be 
called Islamist radicals and revolutionaries. They hate to be 
called murderers. And that is what they are.
    Chairman Lieberman. I am unconvinced. I am going to call 
them all of those things because I think that is what they are. 
They are violent Islamist extremists and they are murderers and 
they are terrorists.
    Mr. Mudd. No, I agree that is what they are. I am just 
saying don't give them what they want. Let us fight about 
this--no, I am just kidding. [Laughter.]
    Chairman Lieberman. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. That was an 
extraordinarily interesting exchange that you just had with Mr. 
Mudd. From my perspective, particularly when we are dealing 
with the military, the refusal to distinguish violent Islamist 
extremism from the peaceful, protected exercise of the Muslim 
religion sends exactly the wrong message because it implies 
that they cannot be distinguished. And it does lead to 
suspicion being cast upon peaceful, patriotic, law-abiding, 
courageous Muslim members of our armed forces.
    So I see it a little bit differently because I think the 
Administration needs to be clear about who our enemy is as much 
as who it is not in order to protect the vast majority of 
peaceful Muslims. And that is why I think defining for our 
military exactly the way the general did, when confronted with 
the white supremacists at Fort Bragg, is very helpful in 
allaying misplaced suspicion. But your point is a fascinating 
one, nonetheless, and I appreciate your making it.
    I want to talk about the Joint Terrorism Task Forces. This 
model was created to ensure that information was shared, and I 
remember when the JTTFs were first created, I was very upset 
that there was not one in Portland, Maine, and I went to the 
FBI and I said, ``We have to have one in Portland, Maine.'' 
After all, two of the terrorists began their journey of death 
and destruction on September 11, 2001, from Portland, Maine. 
And, interestingly--and to get back to a point that two of our 
witnesses made--at first the police chief in Portland did not 
want to participate because he did not want to devote an 
officer full time to a JTTF and lose that officer from the 
street.
    I want to get back to that point, but to me, the most 
perplexing aspect of this case is that the army was never 
notified about Hasan's communications with a known terrorist 
suspect, a known murderer and planner. That to me is just 
inconceivable. After all, think about the name of the task 
force. It is the Joint Task Force. Both those words--all three 
of those words imply a sharing of information and personnel. 
And yet the information was not communicated to the army.
    First let me start with the general. If that information 
had been communicated to the army, to Hasan's superiors, given 
all else they knew, do you think action would have been taken?
    General Keane. It is probably likely that something would 
have been done because if that came through intelligence 
circles, then into the Criminal Investigation Division, they 
would come down and start talking to the chain of command and 
saying, ``Look, we have information on this major who is 
dealing with an extremist. What have you got on this guy?'' And 
they would start having a conversation saying, Oh, yes, we have 
this, this, this, and that. I think that probably would have 
been a call to some kind of action on the part of the chain of 
command. Particularly from that external source, it would have 
been enough motivation to get Major Hason's superiors over 
their reluctance to confront what they were facing. I think it 
is likely that something would have been done.
    Senator Collins. Mr. Allen, when we talked to the FBI about 
why that information was not shared, at first they said there 
were legal impediments. Then later they said they were worried 
about compromising the integrity of their investigation of the 
suspect in Yemen. Then they said that they were concerned that 
the ``least intrusive means'' language was somehow a barrier to 
sharing that information.
    Were there means by which the FBI could have passed on the 
information about Major Hasan to the military, to DOD, without 
revealing the source of the threat information?
    Mr. Allen. In my view, yes. Pursuing a suspected terrorist 
abroad, there are a lot of ways to do that and there is a lot 
of information. Clearly sources and methods on how this 
information involving Major Hasan was collected is very 
crucial. But in my view, that information should have been 
absolutely made available in its fullest, as required, to the 
appropriate authorities who have security clearances at the 
level required within the Department of Defense.
    This was not the first time we have let compartmentation, 
restricted handling as we called it at the CIA, result in 
casualties or contribute to casualties. And we, in my view, 
cannot afford to do this. The JTTF model, in my view, needs to 
be looked at again. It may not be the right model for the 21st 
Century and where we are today with the growth of extremism 
here in our country.
    So I think your point is well taken. My opinion is that 
this should not have been a problem, and an individual 
representing the Department of Defense--and I spent some years 
in the Office of the Secretary of Defense so I know what it is 
like--should have had the system high clearances and accesses 
so that this could have been pursued appropriately with 
intelligence and security authorities within the Department of 
the Army.
    Senator Collins. Thank you.
    Mr. Mudd, I was intrigued by your discussion of where do we 
go from here because that is really important to be our focus. 
Should we rethink the very structure of the JTTFs? You talked 
about having people trained together. I thought that was an 
excellent idea. But do we have this backwards? I mean, perhaps 
should it be that we are embedding FBI agents in the fusion 
centers more or with big-city police departments? Do we have 
the structure right? And, Mr. Rascoff, I am going to ask you 
the same question.
    Mr. Mudd. Mr. Rascoff, please just say what I say, OK? And 
then we will be OK. [Laughter.]
    I would ask the question a bit differently, if I could. 
There is a difference between a success in investigative 
activity out of a relatively small Joint Task Force, and I 
think anybody in the national security arena, if they had seen 
this picture 10 years ago, if they said the biggest tragedy we 
will face--I know it is brutal, but there are 13 people dead, 
people in this country would have said, ``You are nuts.'' So 
investigatively I think many people would say this has been 
successful when we have a point target that comes into the 
sites, ensuring that point target--that is, a case--does not 
explode something in a shopping mall.
    The question we have, to get back to where I started, is: 
How do you take the mass of a revolutionary movement in this 
country, a bunch of people, angry kids in cities like we saw 
here with the Virginian kids going to train in Pakistan. We 
have seen it up and down the East Coast and the West Coast. I 
think the question should be not whether we reconsider the 
JTTFs. It is a good investigative organ. I think we ought to 
agnostically go and talk to the International Association of 
Chiefs of Police, fusion centers, and say: Forget about 
investigations. If we are trying to sort through the massive 
data--it might be organized crime data because that is a big 
problem or child porn data, which is the most troubling thing I 
saw at the FBI. How do we go and not just investigate--JTTFs 
are pretty good at that--but collectively sort through this and 
train to sort through this and get around now an apparatus 
where you have fusion centers that all have their own 
approaches, you have JTTFs, and you have major city departments 
that have their own capabilities that are most remarkable, 
which is at NYPD. I would get away from critiquing the JTTFs, I 
would say, and just agnostically and say how do we hunt needles 
in haystacks and how do we do it more efficiently.
    Senator Collins. Thank you. Mr. Rascoff.
    Mr. Rascoff. I would tend to agree that the conversation 
ought to----
    Senator Collins. Did you have any choice? [Laughter.]
    Mr. Rascoff. I would tend to agree that we ought to be 
thinking not just about tweaks to the institution of the JTTF, 
but Senator Collins, following your question, we ought to be 
thinking more comprehensively about the possibility of needing 
new kinds of institutions and new models for marrying up 
Federal and local know-how in this area. And it occurs to me 
that one kind of union that we ought to be thinking seriously 
about is a union between analysts within the FBI and seasoned 
veteran local law enforcement officials. What particular form 
that union takes, I do not know. I could imagine it being 
lodged within the JTTF. I could imagine it taking a new form 
altogether. But I think the concept that is important is 
somehow fusing the knowledge that is reposed within our local 
police departments already--we do not have to re-create that 
knowledge--and making sure that the FBI has the benefit of that 
knowledge by virtue of its kind of analytic talent.
    Senator Collins. I know my time has expired. Just one final 
comment. We still have a lot of cultural barriers to overcome 
here, and even if we change the structure, if we do not change 
the willingness to disseminate and analyze information and 
continue the work that Director Robert Mueller is doing in 
transforming the FBI, then there is this tendency to still just 
keep the information closely held. And that was one of the 
problems here. Thank you.
    Chairman Lieberman. Thank you, Senator Collins.
    It is a pleasure for the first time call on Senator Johnson 
for questioning.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman and Senator 
Collins. I certainly appreciate your earlier warm welcome, and 
I just want to let you know I realize how important the work is 
of this Committee--so I requested to be on this Committee. The 
defense of our homeland is a top priority of our Nation, so I 
look forward to working with you.
    I would like to offer my condolences to the victims and the 
families of the victims. I hope we all understand that the men 
and women that step up to the plate and defend our Nation are 
the finest among us. And, again, I am eternally grateful.
    General Keane, I would like to start the questioning with 
you. First of all, thank you for your service, sir. You 
mentioned in your earlier testimony that it would be an act of 
moral courage to step forward. Can you explain what you meant 
by that?
    General Keane. Well, what I was saying is that, in the 
absence of clear policy guidance about this ideology and what 
it stands for, and the fact that it is associated with a 
religion, people draw away from it. What we need is policy 
guidance that removes the fact that you have to have an act of 
moral courage to do something about it. A soldier who sees this 
kind of ideology manifesting itself in speech, who is informed, 
trained, and educated on it, has an obligation to report it. 
That should be unequivocal. That is not true today. There is no 
guidance like that today. What the soldier does know and what 
all leaders know is that anything against the good order and 
discipline of an organization, whether it is misbehavior, 
conduct, speech, etc., something should be done about that.
    But because of this ideology and the complexity of it, we 
need education and training on it, just as we did on something 
in this country that was known for hundreds of years dealing 
with race and racial extremism. We published a pamphlet in the 
1990s on that subject because we were invaded by skinheads 
inside the military who were using the military for their own 
purposes to gain training, etc. And we had never confronted 
that before specifically. And we conducted training throughout 
the entire chain of command, from soldier to general, on what 
this racial extremism was, what its manifestation was, and what 
we would do about it. And anybody who saw it or heard it had an 
obligation to report it. That is what I mean. Take that burden 
off of the soldier, the sergeant, or the officer. Make it an 
obligation to report it and it is a duty to report it, and give 
them the tools to understand it.
    Senator Johnson. You said the officers were probably 
uncomfortable. Was there something more going on there, though? 
Was there a fear of reprisal and harm to their future careers? 
Is there that thing going through the military?
    General Keane. I would suspect that the association of 
Islamist extremism with a religion is part of the problem, and 
that is why the education and training is necessary to clearly 
delineate what it is, and that we are separating the ideology 
from this great religion of the world, and unburdening the 
people in terms of the confrontation in dealing with it. I 
think that is certainly part of the issue here in terms--you 
have to scratch your head and say why, after repeated 
occurrences of this kind of expression, something was not done 
about it.
    Understand this, Senator. This is the U.S. military, we 
trump people's rights when they take the oath to the 
Constitution. You do not have the right to free speech. You do 
not have the right to speak against the chain of command. You 
do not have the right to speak against the President of the 
United States. We can take action against that. You do not have 
the right to privacy. You do not have the right to assemble 
with groups of other people when you feel like it. Those things 
are denied service people because what comes first is the 
mission and the good order and discipline of an organization to 
be able to perform effectively, to be able to accomplish that 
mission. So everybody who has taken an oath understands that. 
And yet we are still unwilling to confront that behavior and 
that speech.
    Senator Johnson. Have there been military careers ruined 
because people step forward and complain against somebody that 
it might be politically incorrect to complain about?
    General Keane. I have not seen it. I mean, in the 
organizations that I have been associated with all of my life, 
if we have somebody that does not reflect the values and 
character of the organization, we do something about it and 
counsel them, if we can. If you cannot correct that behavior, 
you are probably going to separate that person. That is the 
reality of it.
    Senator Johnson. You can see I am just puzzled why nobody 
reported it.
    Mr. Mudd, I was very interested in your comment about the 
Internet and the gap--I believe what you were talking about is 
the gap between what you would like to do and what you are 
allowed to do. Can you speak to that and tell me what you mean?
    Mr. Mudd. Sure. I would characterize it maybe not ``like 
to'' but ``could do.'' Again, I talk to a lot of security 
service colleagues around the world, and a lot are more 
aggressive than we are. The Internet is sort of a stateless 
entity, but we are probably more conservative than most 
security organizations in how we deal with it.
    What I am saying is if you are looking at a situation like 
radicalization on the Internet, you find a note of 
radicalization--clearly we have that out of the Arabian 
Peninsula in this case. You might say to yourself, OK, I want 
to conduct activity to look for words of violence to sort 
through these tens of thousands of people who might be in 
contact with this individual, and then start to neck it down. I 
am most interested in people who are also pinging other known 
Web sites and the frequency with which they are pinging those 
Web sites. All these are indicators. You might say I want to 
know people who travel overseas, in particular to places I am 
worried about. Let me name Pakistan and Yemen as two places I 
would be deeply concerned about.
    I mean, I could go on and on about it, but the point is 
think about what I just said. That is a good way to boil down 
an ocean over time to a cup and then to a drop. None of those 
is a Federal violation, and some are directly involved in free 
speech to conduct preventive intelligence operations in the 
United States.
    Let me close with one point. I was re-reading this morning 
the Church Committee reports from the 1970s. They were very 
critical of the domestic intelligence architecture for being 
preventive and looking at things that were not Federal 
violations. So you are talking about why the military might be 
a little nervous. I am telling you, the people who live in my 
business know where we are going to be in a year when we go 
down this road. We are going to be in front of another 
committee.
    I will close on a personal note. I was involved at CIA 
operations between 2002 and 2005 that were supported by the 
Department of Justice, briefed to the Congress, and told by the 
White House this is the policy of the United States; and I lost 
a job over it because I could not get in front of this 
Committee for a confirmation hearing. That is the way this town 
works. And, by the way, my life is better because of it. 
[Laughter.]
    But my point to illustrate this personally is that this 
town changes frequently. Unless you provide guidance, people 
are going to say, ``I ain't getting kicked a second time by the 
mule, because the first time I learned my lesson.''
    Senator Johnson. Is it guidance or is it legislation that 
is required?
    Mr. Mudd. That is a good question. I do not know. I am not 
a believer in overlegislating, so I would probably say get the 
work done on the analysis and see whether guidance is clear 
enough. If there is something in black and white on a piece of 
paper that is going to give people a level of comfort that they 
are not going to get attacked in a year or two because they 
made a mistake--and there are going to be mistakes, because you 
are going to go from 10,000 to one, and the 200, when you are 
getting near the end of that neck, you are going to say, I have 
a right to get on that Web site. I want to see through a 
Freedom of Information Act (FOIA) request why you are looking 
at me, and I have a lawyer now.
    Senator Johnson. Thank you.
    Chairman Lieberman. Thanks, Senator Johnson. Excellent 
questions.
    There is a vote going off in about 5 minutes. Maybe we each 
can ask one question. At least I have one I would like to ask, 
which is: One of the big takeaways from the report, apart from 
the infuriating specifics, was this question of how do we 
develop a broader counter-homegrown radicalization strategy to 
prevent the needles from appearing in the haystack? Or if they 
do, how do we find them before they hurt somebody? And this 
obviously involves law enforcement and intelligence, but 
presumably goes beyond that. There is not an easy way at this 
point in our governmental apparatus to organize this. I just 
wanted to quickly invite any of you, do you have any thoughts 
about how we might achieve the establishment of this kind of 
counter-radicalization strategy in our country? Mr. Allen.
    Mr. Allen. Yes, Mr. Chairman, and I think this is extremely 
hard and is going to take time. But I think we have to begin. 
We formed a Director of National Intelligence in the 
Intelligence Reform and Terrorism Prevention Act of 2004 
(IRTPA). You all made further legislation, the 9/11 Commission 
Recommendations Implementation Act. There is a lot there that 
can and should be done, starting at the very local level and 
involving Federal, State, and local.
    We do not have, as I said in my written statement, a 
national intelligence collection plan that relates to domestic 
terrorism.
    Chairman Lieberman. A very important point.
    Mr. Allen. We do not have the minimal essential needs on 
what we should be collecting within the law and authorities. I 
started an experiment over at Homeland Security as the Under 
Secretary--and Mr. Mudd may be right; he was better off not to 
spend 3 years doing what I tried to do--to develop the minimal 
essential requirements. We did a prototype, went out and talked 
to five fusion centers and with local police, and we developed 
a beginning set of what really do you want, not what comes down 
but what as a partner do we require with local law enforcement, 
with the fusion centers, and with the Joint Terrorism Task 
Forces. So there has to be a unified approach.
    There are a lot of authorities there. What I would like to 
see from the Administration and from the Director of National 
Intelligence, as well as the Department of Homeland Security 
and, of course, the Department of Justice, all involved in 
building a unified intelligence architecture for domestic 
terrorism. We are not there. We have pieces of it, but it is 
not unified. I meet with informed law enforcement officers, 
former FBI officials, with the informal group that is led by a 
RAND Corporation specialist, and we have talked about this at 
length. And I believe your Committee is well aware of this.
    But we are in the early stages of this. We need to move on. 
There is a sense of urgency, it seems to me, given the fact 
that we are talking about not a handful but perhaps dozens of 
young people who could be influenced--Americans, American born 
or naturalized Americans, legally permitted Americans--who are 
going to engage in extremism and terrorist acts if we do not 
start working this as a unified approach in a domestic 
intelligence enterprise. And, very regrettably, we are not 
nearly where we should be.
    Chairman Lieberman. I want to yield to Senator Collins in a 
minute. Mr. Rascoff, do you have a thought?
    Mr. Rascoff. What I would like to add to Mr. Allen's 
observation, Mr. Chairman, is this: I think we ought to be 
thinking about two groups of institutional actors that 
historically have not really played a role in the national 
security business. I think under the banner of a kind of whole-
of-government approach, we ought to be thinking about Federal 
agencies that are not really part of our national security 
team, departments like the Department of Education, which has 
recently begun to kind of dip its toe in the water in the area 
of counter-radicalization. The Department of Education and 
other welfare-state type agencies will have a critical role to 
play.
    The second group I would like to mention are grass-roots 
organizations, local schools, local religious organizations. 
These sorts of non-governmental organizations who are close to 
the ground, I think, are going to have a critical role to play. 
So counter-radicalization has to come from a White House 
strategy. There has to be leadership from the top. But I think 
we need to see a new range of institutional actors in Federal 
Government and local actors, specifically local non-
governmental actors, getting into the business.
    Chairman Lieberman. Thanks. Very helpful. Let me yield to 
Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Senator Brown was hoping to return and obviously has not 
been able to and I am sure will be submitting some questions 
for the record. But I just want the General, in particular, to 
know that he intended to ask about officer performance 
evaluations and to express his concern, which I also share, 
that it seems inconceivable to us that Major Hasan received 
these glowing performance evaluations, which the FBI relied on 
in part to terminate its review, despite his troubling and 
erratic personal behavior, but also evidence that he was not a 
very good physician. As you quoted one of his superior officers 
as saying to the people at Fort Hood, ``You are getting our 
worst.''
    And that whole area I believe that our Committee or the 
Armed Services Committee does need to pursue. And I suspect 
that there is a problem with grade inflation, for lack of a 
better term, in these evaluations, because I know personally 
that whenever we have a detailee from the military and it comes 
to the end of that person's time with us, my staff always says 
that I have to give them the highest evaluations, or it will 
hurt their career, even if they were not as good as previous 
officers.
    So I think there is something wrong with the evaluation 
system if it allowed Major Hasan to be promoted time and time 
again in the face of increasingly erratic and troubling 
behavior and also poor performance. So on behalf of Senator 
Brown and myself, I wanted to express those views.
    Let me just end by thanking all of you for being here 
today. I told the Chairman that I thought that this was the 
best possible panel that we could have had, and that each of 
you added so much. You all have served in public life and have 
done so much to help secure our country. I am grateful for 
that. And, again, I want to close by thanking the family 
members and the sergeant and his wife for being here. You are 
why we pursued this investigation, and I want to once again 
assure you that we realize that our job is not finished.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins. 
Senator Johnson.
    Senator Johnson. Just a final thought. As the new kid on 
the block here, I just wanted to say this was extremely 
helpful, very informative, and I just want to thank all four of 
you for your service. And, again, the victims and their 
families, thank you.
    Chairman Lieberman. Thanks, Senator. I would just echo what 
Senator Collins has said. You have been a really excellent 
panel, both insightful and you have made some specific 
recommendations, which we will follow up on.
    The bottom line here is that the results of our 
investigation were both deeply troubling and really 
infuriating. And Senator Collins and I are intent that this 
report not just stay on the shelf. The fascinating thing to us 
was that the key Federal agencies involved, about whom we were 
critical in the report, essentially said when the report was 
issued, that the report makes some good points and that they 
are working on it.
    Sometimes that is the pathway to nothing else happening, 
and this is just too important, as the testimony of the four of 
you has made clear. So we are going to stay on this until we 
are sure that the awful gaps that have been revealed in policy 
and behavior in the report are closed and that the problems 
that resulted are, to the best of our ability, solved.
    The record of the hearing will remain open for 15 days for 
additional questions and answers. Again, I thank the four 
witnesses. I thank the families. We are going to have you back. 
Your reward for coming--your punishment for coming today is 
that we are going to invite you back and have the honor of 
listening to your testimony on this matter.
    With that, the hearing is adjourned.
    [Whereupon, at 12:12 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
